fI
Supreme Court. U.S.
FILED

IN THE

AUG 1 0 2021

SUPREME COURT OF THE UNITED STATES

OFFICE OF TH^ CLERK

\

vTas^r Crook

i

— PETITIONER

(Your Name)

vs.

Roblvr (S\)ea

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

-V

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
\

PETITION FOR WRIT OF CERTIORARI

i

vf^fer CxooV
(Your Name)

1W SkCfoU
(Address)

A4i

CA

(City, ’State, Zip Code)

(Phone Number)

received
AUG 1 1 U\

QUESTION(S) PRESENTED

1. If beneficiaries of the United States Constitution have the right to
prosecute in their own name under Article 3, Section 2 of the Constitution
protected by 42 USC § 1981 and in accordance with the 7th, 9th, and 10th
amendments and evenly applied through the 14th amendment, then any
judges/justices who are clearly ignoring or suppressing these.rights
according to the supreme laws of the land are committing treason for any
blockage, suppression, undo-influence, or coercion not fulfilling their oath
of office?
All judges/justices in petitioner's case have violated 18 USC,Ch. 115:
TREASON, SEDITION, AND SUBVERSIVE ACTIVITIES, § 2383.Rebellion or
insurrection - Whoever incites, sets on foot, assists, or engages in a
rebellion or insurrection against the authority of the United,States or-the
laws thereof(emphasis added), or gives aid or comfort thereto, shall be
incapable of holding any office under the United States.
2. Do Americans have the right to access their courts to prosecute on their own
behalf under the constitution and law already established 42 USC § 1981 for
libel defamation?
3. If petitioner is a beneficiary of the United States Constitution and the
constitution being a binding legal contract, then paying $400 to the district
court for a case that is free with no cost, is a contract with consideration
between the court and the pro se litigant and if the pro se litigant paid for
a venue to conduct a trial by jury and verdict shouldn't the court provide
its duty to the contract and the pro se constitutional beneficiary?
4. Do justices commit treason when they violate the constitutional jurisprudence
when it is clearly written, unambiguously, or capriciously and in plain
English?
5. If the Fourteenth Amendment provides equal protection at law and Dominion v.
Lindell (l:2021cv00445/US District Court for the District of Columbia) is a
defamation libel suit that is moving forward through the court then why has
petitioner's defamation libel suit not moved forward with service* discovery,
and trial by jury?

LIST OF PARTIES

[vd^All parties

appeal’ in the caption of the case on the cover page.

[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

n»

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

Statutes and Rules:

United States Constitution - First Amendment grants the People access to the
courts against state and governmental actors. Article 3, Section 2 defines
the courts jurisdiction to all cases within its borders, SEE US Supreme
Court's copy of 13 Cal Jur 3d § 242. Right of access of courts.
California Constitution - Article 1, Section 1 guarantees the right to
ownership and use of the courts for its preservation and protection.
42 USC § 1981 - Equal rights under the law
(a) Statement of equal rights
All persons within the jurisdiction of the United States shall have the same
right in every State and Territory to make and enforce contracts, to sue, be
pe, and to the full and equal benefit of all laws and
ecurity of persons and property as is enjoyed by white
citizens.

sf
*

FRCP Rule 38. Right to a Jury Trial; Demand
(a)Right Preserved. The right of trial by jury as declared by the Seventh
Amendment to the Constitution—or as provided by a federal statute—is
preserved to the parties inviolate.
(b)Demand. On any issue triable of right by a jury, a party may demand a
jury trial by:
(1)Serving the other parties with a written demand—which may be included in
a pleading—no later than 14 days after the last pleading directed to the
issue is served; and
(2)Filing the demand in accordance with Rule 5(d).
(c)Specifying Issues. In its demand, a party may specify the issues that it
wishes to have tried by a jury; otherwise, it is considered to have demanded
a jury trial on all the issues so triable(emphasis added).

•

Fourteenth Amendment procedural due process stands for the principle that the
government may not act in a manner that is arbitrary, capricious, or
unreasonable when subjecting an individual to the laws of the state.
QTFHgRndent, R°bin Shea, only receives her authority from the state. Robin
Shea, a state actor, and all presiding judges previous to this Supreme Court
petition have violated 18 U.S. Code § 2385. Advocating overthrow of
Government.
Ninth Amendment guarantees the preservation of the individual's right to
prosecute in their own name.
Tenth Amendment ensures these rights remain with the People.

^0

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

V

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3.

STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A
APPENDIX B

APPENDIX C
APPENDIX-P
APPENDIX- E
AR-PENDIX-F

£.•

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.

OPINIONS BELOW
[v^For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix A

to

the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[\A is unpublished.

to

The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION
[v^For cases from federal courts:
The date on which the United States Court of Appeals decided my case

was vyA~

»—J-kksV) ces

I^

Y'-Csitiling l'w VIflUffOh
[ ] No petition for rehearing was timely filed in my case.

^
EcUeUi'on

[\^A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: tTldij "11 liyi\________ , and a copy of the
order denying rehearing appears at Appendix__A___
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including _
(date) on
(date)
in Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
_______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

•

Petitioner's guaranty of free justice and open courts. SEE Exhibit 1 - Am
Jurs 2d 16A Constitutional Law, § 613. Guaranty, free justice and open
courts, attached to petitioner's declaration.

•

Petitioner contracted with the court for a venue and jury trial and paid $400
for the court to conduct a jury trial as a matter of right and justice.

•

Article 3, Section 2 defines the courts jurisdiction to all cases within its
borders.

42 USC § 1981 - Equal rights under the law; Fourteenth Amendment, equal
protection of law.

18 U.S. Code § 2385. Advocating overthrow of Government.

STATEMENT OF THE CASE

Petitioner, Jasper Crook, filed a libel defamation suit against Respondent,
Robin Shea, court appointed fiduciary. Robin Shea filed lies to the court in
an attempt to cover up a financial crimes(embezzlement/fraud) committed by a
conservator that Mrs. Shea shares an attorney with who are both involved in
the case. Jasper Crook has the right under 42 USC § 1981 to bring the case.
Constitutional right under Article 3 Section 2, Rule 38 FRCP, and 9th & 10th
amendments to prosecute in his own name protected by the 14th equal
protection at law. Dominion voting machine v. Mike Lindell(1:2021cv00445/US
District Court for the District of Columbia) and others are going forward
with their libel lawsuits without these seditious delays to justice.

4.

'O

REASONS FOR GRANTING THE PETITION

•

To ensure the integrity of the judicial system and provide clarity to the
court clerk(s) knowledge of Supreme Court holdings. Constitution Article 3
Section 2, 42 USC § 1981, and 14th amendment. The Constitution and rule of
law are in exact alignment with the petitioner’s request.

•

Petitioner requests an order to have his case remanded to the district court
for further proceedings; trial by jury.

*7*

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

Aw.,u',V io -2*2-1

5

(£>•

Oslo

